Appendix

Case: 19-50083

Document: 00515484234

Page: 1

Date Filed: 07/10/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-50083

FILED
July 10, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
RANDY DOMINGUEZ,
Defendant-Appellant
Appeal from the United States District Court
for the Western District of Texas
USDC No. 7:18-CR-125-1

Before STEWART, GRAVES, and HIGGINSON, Circuit Judges.
PER CURIAM: *
With the assistance of appointed counsel, Randy Dominguez moves this
court for leave to proceed in forma pauperis (IFP) in this direct criminal appeal
following the district court’s denial of IFP status. He contends that the district
court erred by not construing his pro se motion for leave to file an out-of-time
appeal as a § 2255 motion raising a claim of ineffective assistance of counsel
based on his counsel’s failure to file a timely notice of appeal.

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

1a

Case: 19-50083

Document: 00515484234

Page: 2

Date Filed: 07/10/2020

No. 19-50083
We must assess our own jurisdiction, sua sponte if necessary. United
States v. Villanueva-Diaz, 634 F.3d 844, 848 (5th Cir. 2011). “An appeal
permitted by law as of right from a district court to a court of appeals may be
taken only by filing a notice of appeal with the district clerk within the time
allowed by Rule 4.” FED. R. APP. P. 3(a)(1). The sole appellate issue that
Dominguez raises in his brief in support of his IFP motion relates to the
propriety of the district court’s order denying his motion for leave to file an outof-time appeal. Because Dominguez has not filed a notice of appeal or any
document that could be construed as a timely notice of appeal from the district
court’s order denying his motion for leave to file an out-of-time appeal, this
court does not have jurisdiction to consider it. See FED. R. APP. P. 3(a)(1).
Dominguez does not point to any nonfrivolous issue that he seeks to raise
in his appeal of the judgment of conviction. Accordingly, he has not shown that
his appeal is taken in good faith. See United States v. Boutwell, 896 F.2d 884,
889-90 (5th Cir. 1990); Howard v. King, 707 F.2d 215, 220 (5th Cir.1983).
The motion for leave to proceed IFP on appeal is DENIED. Dominguez’s
appeal of the criminal judgment is DISMISSED as frivolous pursuant to Fifth
Circuit Rule 42.2. To the extent Dominguez is appealing the district court’s
denial of his motion for leave to file an out-of-time appeal, the appeal is
DISMISSED for lack of jurisdiction. Counsel’s motion to withdraw is DENIED
as moot.

2

2a

Case: 19-50083

Document: 00515232917

Page: 1

Date Filed: 12/11/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-50083
UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
RANDY DOMINGUEZ,
Defendant-Appellant
Appeal from the United States District Court
for the Western District of Texas
O R D E R:
Randy Dominguez, federal prisoner # 06262-480, moves for leave to
proceed in forma pauperis (IFP) in this appeal from his convictions and
sentences for possessing with intent to distribute 50 grams or more of actual
methamphetamine and possessing a firearm in furtherance of a drug
trafficking crime. The district court denied Dominguez leave to proceed IFP
on appeal and certified that the appeal was frivolous. Dominguez also moves
for the appointment of appellate counsel.
The affidavit Dominguez has filed demonstrates his financial eligibility
for appointment of counsel, and his offenses of conviction are felonies. 18
U.S.C.

§§ 3006A(a)(1)(A),

(c),

3559(a);

FIFTH

CIRCUIT

PLAN

FOR

REPRESENTATION ON APPEAL UNDER THE CRIMINAL JUSTICE ACT §§ 3A, 4.
Although the district court denied an extension of time for Dominguez to file a

3a

Case: 19-50083

Document: 00515232917

Page: 2

Date Filed: 12/11/2019

No. 19-50083
notice of appeal, there is a nonfrivolous basis for arguing that this court should
not dismiss the appeal as untimely absent the Government’s assertion of the
time limit (or defense counsel’s certification that the Government intends to
seek enforcement). Cf. United States v. Pesina-Rodriguez, 825 F.3d 787 (5th
Cir. 2016); United States v. Leijano-Cruz, 473 F.3d 571 (5th Cir. 2006).
Accordingly, Dominguez’s motion to proceed IFP on appeal is DENIED
WITHOUT PREJUDICE, and his motion for the appointment of counsel is
GRANTED for the limited purpose of assisting Dominguez in filing a motion
for leave to proceed IFP on appeal. See 18 U.S.C. § 3006A; Johnson v. United
States, 352 U.S. 565, 566 (1957); United States v. Boutwell, 896 F.2d 884, 88590 (5th Cir. 1990).
Once counsel has been selected and any necessary transcripts have been
filed, the Clerk’s Office shall direct the appointed attorney to file, within 40
days, either a motion on Dominguez’s behalf to proceed IFP on appeal along
with an appellant’s brief so that the court can determine whether the appeal
has been taken in good faith, see 28 U.S.C. § 1915(a)(3); Boutwell, 896 F.2d at
887-90, or, alternatively, a motion to withdraw pursuant to Anders v.
California, 386 U.S. 738 (1967), and an accompanying Anders brief.
/s/ James E. Graves, Jr.
___________________________________
JAMES E. GRAVES, JR.
UNITED STATES CIRCUIT JUDGE

2

4a

Case: 19-50083

Document: 00515065878

5a

Page: 1

Date Filed: 08/06/2019

Case: 19-50083

Document: 00515065878

6a

Page: 2

Date Filed: 08/06/2019

Case 7:18-cr-00125-DC Document 50 Filed 05/23/19 Page 1 of 2

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
MIDLAND/ODESSA DIVISION
UNITED STATES OF AMERICA
vs.
(1) RANDY DOMINGUEZ

§
§
§
§
§

NO:

MO:18-CR-00125(1)-DC

DENY MOTION TO PROCEED IN FORMA PAUPERIS ON APPEAL
Before the Court is Movant’s Application to Proceed in forma pauperis (“IFP”) from this
Court’s denial of his Motion for Leave to File an Out-of-Time Notice of Appeal. [docket number
49].
The standards governing in forma pauperis motions are set forth in 28 U.S.C. §1915(a).
The motion must state “the nature of the action, defense or appeal and affiant’s belief that he is
entitled to redress.” 28 U.S.C. §1915(a). The district court may deny leave to proceed in forma
pauperis if an appeal is not taken in good faith. See Cay v. Estelle, 789 F.2d 318, 326 (5th Cir.
1986). An appeal is taken in good faith if it presents an arguable issue on the merits and therefore is
not frivolous. See Coppedge v. United States, 369 U.S. 438, 445 (1962); Howard v. King, 707 F.2d
215, 219 (5th Cir. 1983). A movant must demonstrate the existence of a non-frivolous issue for
appeal. See Payne v. Lynaugh, 843 F.2d 177, 178 (5th Cir. 1988). An action is frivolous where
there is no arguable legal or factual basis for the claim. Neitzke v. Williams, 490 U.S. 319, 325
(1989). Such is the case here.
Movant wholly fails to present a good faith, non-frivolous, arguable issue for appeal.
Accordingly this Application to Proceed IFP on Appeal is DENIED. [docket number 49].
Although this court has certified that the appeal is not taken in good faith, Movant may
challenge this finding pursuant to Baugh v. Taylor, 117 F.3d 197 (5th Cir. 1997), by filing a

7a

19-50083.81

Case 7:18-cr-00125-DC Document 50 Filed 05/23/19 Page 2 of 2

separate motion to proceed IFP on appeal with the Clerk of the Court, U.S. Court of Appeals for
the Fifth Circuit, within 30 days of this order.
It is so ORDERED.
SIGNED this 23rd day of May, 2019.

DAVID COUNTS
UNITED STATES DISTRICT JUDGE

2
8a

19-50083.82

Case: 19-50083

Document: 00514917786

9a

Page: 1

Date Filed: 04/16/2019

Case: 19-50083

Document: 00514917786

10a

Page: 2

Date Filed: 04/16/2019

